Department of Health and Human Services

             OFFICE OF 

        INSPECTOR GENERAL 





   SELF-DECLARATION OF U.S. 

   CITIZENSHIP FOR MEDICAID





                    Daniel R. Levinson

                     Inspector General 


                       July 2005

                     OEI-02-03-00190

               Office of Inspector General 

                                    http://oig.hhs.gov

The mission of the Office of Inspector General (OIG), as mandated by Public Law 95-452,
as amended, is to protect the integrity of the Department of Health and Human Services
(HHS) programs, as well as the health and welfare of beneficiaries served by those
programs. This statutory mission is carried out through a nationwide network of audits,
investigations, and inspections conducted by the following operating components:

Office of Audit Services
The OIG's Office of Audit Services (OAS) provides all auditing services for HHS, either by
conducting audits with its own audit resources or by overseeing audit work done by others.
Audits examine the performance of HHS programs and/or its grantees and contractors
in carrying out their respective responsibilities and are intended to provide independent
assessments of HHS programs and operations in order to reduce waste, abuse, and
mismanagement and to promote economy and efficiency throughout the department.

Office of Evaluation and Inspections
The OIG's Office of Evaluation and Inspections (OEI) conducts short-term management
and program evaluations (called inspections) that focus on issues of concern to the
department, the Congress, and the public. The findings and recommendations contained
in the inspections reports generate rapid, accurate, and up-to-date information on the
efficiency, vulnerability, and effectiveness of departmental programs. The OEI also
oversees State Medicaid fraud control units, which investigate and prosecute fraud and
patient abuse in the Medicaid program.

Office of Investigations
The OIG's Office of Investigations (OI) conducts criminal, civil, and administrative
investigations of allegations of wrongdoing in HHS programs or to HHS beneficiaries
and of unjust enrichment by providers. The investigative efforts of OI lead to criminal
convictions, administrative sanctions, or civil monetary penalties.

Office of Counsel to the Inspector General
The Office of Counsel to the Inspector General (OCIG) provides general legal services to
the OIG, rendering advice and opinions on HHS programs and operations and providing
all legal support in OIG's internal operations. The OCIG imposes program exclusions
and civil monetary penalties on health care providers and litigates those actions within
the department. The OCIG also represents OIG in the global settlement of cases arising
under the Civil False Claims Act, develops and monitors corporate integrity agreements,
develops compliance program guidances, renders advisory opinions on OIG sanctions to
the health care community, and issues fraud alerts and other industry guidance.
E X E C U T I V E                         S U             M M A R Y
Δ    E X E C U T I V E                                      S U M M A R Y                    



                   OBJECTIVES
                   Our objectives were to determine the extent to which States allow
                   self-declaration of U.S. citizenship for Medicaid and related programs
                   and to identify potential vulnerabilities, if any, associated with
                   quality control activities and evidence used to document citizenship.


                   BACKGROUND
                   The Personal Responsibility and Work Opportunity Reconciliation Act
                   of 1996 restricts eligibility for Medicaid to U.S. citizens, nationals of
                   the United States, or qualified aliens. Since 1986, verification of U.S.
                   citizenship for purposes of Medicaid eligibility has been governed by
                   section 1137(d) of the Social Security Act (the Act). The Act requires
                   “a declaration in writing, under penalty of perjury . . . stating whether
                   the individual is a citizen or national of the United States.” Pursuant
                   to the Act, the Centers for Medicare & Medicaid Services (CMS)
                   allows, but does not require, States to accept self-declaration of
                   citizenship without requiring submission of additional documentary
                   evidence. In September 2002, CMS planned to issue a final rule that
                   would permit States to continue using self-declarations of citizenship
                   for Medicaid eligibility.1 At that time, OIG agreed to conduct an
                   inspection on the extent to which States allow self-declaration.
                   Subsequently, CMS withdrew the proposed rule. However, OIG
                   completed the inspection because of its potential value in the
                   administration of the program.

                   In recent years, CMS has encouraged self-declaration in an effort to
                   simplify and accelerate the Medicaid application process.2 While the
                   policy to allow applicants to self-declare citizenship can result in rapid
                   enrollment, it can also result in inaccurate eligibility determinations
                   for applicants who provide false citizenship statements. As such,
                   there are inherent challenges in trying to provide Medicaid benefits
                   expeditiously while still ensuring the accuracy of eligibility
                   determinations. In a 2001 pamphlet, CMS provided information on
                   how to maintain program integrity while attempting to simplify the

                   1 Centers for Medicare & Medicaid Services, “Medicaid Program: Self-Declaration of
                      Citizenship,” CMS-2085-P, Sept. 12, 2002.
                   2 Centers for Medicare & Medicaid Services, “Continuing the Progress: Enrolling and
                      Retaining Low-Income Families and Children in Health Care Coverage,” Pub. No. 11000,
                      Aug. 2001.



 OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID
                                                                                                             i
E X E C U T I V E                         S U             M M A R Y


                   application process. These strategies include verifying the accuracy of
                   citizenship statements against other nonapplicant sources, such as
                   State vital statistics databases, and/or conducting posteligibility-
                   focused reviews.3
                   For this inspection, we gathered information from State Medicaid
                   directors and their staff responsible for quality control activities.
                   Additionally, we surveyed State Temporary Assistance for Needy
                   Families (TANF) directors, State foster care directors, and Social
                   Security Administration (SSA) officials.


                   FINDINGS
                   Forty-seven States allow self-declaration of U.S. citizenship for
                   Medicaid; nearly all of these require evidence if statements seem
                   questionable. Pursuant to Federal policy, States may accept a
                   signed declaration as proof of U.S. citizenship from applicants seeking
                   Medicaid benefits. Currently, 40 Medicaid directors report that their
                   State allows self-declaration of citizenship. An additional seven
                   report that self-declaration is sometimes allowed. The four remaining
                   directors report that self-declaration is not permitted in their State.
                   These States are Montana, New Hampshire, New York, and Texas.

                   Forty-four of the forty-seven States that allow or sometimes allow
                   self-declaration have “prudent person policies” which require evidence
                   of citizenship if statements seem questionable to eligibility staff.
                   Thirty-two of these have written prudent person policies, and the
                   remaining 12 have unwritten, informal policies requiring
                   documentation for questionable statements.
                   Twenty-seven States do not verify the accuracy of any U.S.
                   citizenship statements as part of their posteligibility quality
                   control activities. In fiscal year 2003, 27 of the 47 States that allow
                   self-declaration did not conduct quality control activities that included
                   verification of statements of U.S. citizenship. Of the 20 States that
                   did review statements, 9 did so for a nonrepresentative sample of the
                   entire Medicaid population. Consequently, some groups that could
                   pose vulnerability to Medicaid integrity were not included in the
                   review sample.

                   3 Centers for Medicare & Medicaid Services, “Continuing the Progress: Enrolling and
                      Retaining Low-Income Families and Children in Health Care Coverage,” Pub. No. 11000,
                      Aug. 2001.



 OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID
                                                                                                         ii
E X E C U T I V E                         S U             M M A R Y


                   Some States use types of evidence that are not accepted by CMS
                   or SSA to document citizenship for Medicaid. As reported earlier,
                   seven States sometimes allow and four States do not allow Medicaid
                   applicants to self-declare citizenship. Of these 11 States, 4 use types
                   of evidence to document citizenship that are not accepted by CMS or
                   SSA. Furthermore, 13 of the 20 States that report conducting quality
                   control to verify statements of U.S. citizenship use types of evidence
                   that are not accepted by CMS or SSA, such as school records, family
                   Bibles, voter registration records, and marriage licenses.
                   Medicaid-related programs are more likely to verify citizenship;
                   their verifications may be a useful resource for Medicaid. SSA
                   states that all applicants must provide documentary evidence of U.S.
                   citizenship in order to receive a Social Security number or qualify for
                   Supplemental Security Income (SSI) benefits. Forty-two of fifty-one
                   foster care directors report that staff document U.S. citizenship when
                   determining eligibility for Title IV-E foster care maintenance
                   payments. Twenty-seven of fifty-one TANF directors report
                   documenting or sometimes documenting citizenship for purposes of
                   eligibility.

                   In the majority of instances, we found that these Medicaid-related
                   programs draw on evidence accepted by CMS or SSA to document
                   statements of U.S. citizenship. These citizenship verifications may be
                   a useful resource for Medicaid.


                   RECOMMENDATIONS
                   We recognize that there are challenges in providing Medicaid benefits
                   expeditiously while ensuring the accuracy of eligibility determinations.
                   By their nature, self-declaration policies have inherent vulnerabilities
                   in that they can allow applicants to provide false statements of
                   citizenship. As such, it is vital to have protections in place to prevent
                   such practices.

                   Based on the descriptive information we collected from States, we
                   conclude that existing safeguards at the point of entry into Medicaid
                   and during posteligibility quality control could allow false statements of
                   citizenship to go undetected. Below are three recommendations for
                   improving safeguards:

                   • 	 CMS should strengthen posteligibility quality controls in States that
                       allow self-declaration.


 OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID
                                                                                             iii
E X E C U T I V E                         S U             M M A R Y


                   • 	 CMS should issue a complete list of evidence that States may
                       reference when determining eligibility.

                   • 	 CMS should explore allowing State Medicaid staff to use citizenship
                       verifications from other Medicaid-related programs as an additional
                       resource.


                   AGENCY COMMENTS
                   CMS concurred with our recommendations. The agency further
                   commented that it has already taken steps to improve safeguards to
                   prevent applicants from providing false statements of citizenship. The
                   full text of CMS’s comments is included in Appendix D.

                   We note several issues with CMS’s current efforts. Specifically, CMS
                   explained that, pursuant to Federal regulations, States must verify
                   statements of citizenship for sampled active cases as part of their
                   posteligibility quality control procedures. We reiterate that this
                   regulation applies only to States that operate traditional quality control.
                   States that operate under a pilot or a section 1115 waiver with a quality
                   control component are not required to verify all elements of eligibility,
                   including statements of citizenship, as part of their posteligibility case
                   file review.

                   CMS also commented that States choosing to accept self-declaration of
                   citizenship need to have systems in place for some type of posteligiblity
                   check to ensure that the self-declaration procedure is reliable. CMS
                   stated that it is taking steps to do this by requiring a review of the
                   accuracy of eligibility determinations as part of the Payment Error Rate
                   Measurement (PERM) project. Currently, the Office of Management
                   and Budget is working with CMS to define the scope of the PERM
                   project. As of June, no decision has been made regarding the inclusion
                   of errors related to Medicaid eligibility determinations.




 OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID
                                                                                             iv
Δ   T A B L E           O F             C O N T E N T S                                  





         EXECUTIVE SUMMARY ......................................... i



         INTRODUCTION ................................................ 1




         FINDINGS... .................................................... 9

                    States allowing self-declaration of citizenship . . . . . . . . . . . . . . . . . . 9 


                    Posteligibility quality control activities. . . . . . . . . . . . . . . . . . . . . . . . 11 


                    Forms of evidence used to document citizenship. . . . . . . . . . . . . . . . 14 


                    Practices in Medicaid-related programs . . . . . . . . . . . . . . . . . . . . . . . 15 



         R E C O M M E N D A T I O N S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 18 




         A P P E N D I X E S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 20 

                    A:	 Evidence Accepted to Document Statements of Citizenship . . 20 


                    B: 	Medicaid Eligibility Quality Controls in States Allowing 


                         Self-Declaration. . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 22 


                    C:	 Related Program Policies on Self-Declaration . . . . . . . . . . . . . . . 24 


                    D: 	Agency Comments . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 26 




         A C K N O W L E D G M E N T S . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . . 29 

Δ    I N T R O D U C T I O N                                                   



                      OBJECTIVES
                      Our objectives were to determine the extent to which States allow
                      self-declaration of U.S. citizenship for Medicaid and related programs
                      and to identify potential vulnerabilities, if any, associated with
                      quality control activities and evidence used to document citizenship.


                      BACKGROUND
                      Title XIX of the Social Security Act (the Act) establishes Medicaid as a
                      jointly funded, Federal-State health insurance program. To qualify
                      for the full range of Medicaid benefits provided under a State plan, an
                      applicant must be either a citizen or a national of the United States or
                      a qualified alien.4 Since 1986, verification of U.S. citizenship for
                      purposes of Medicaid eligibility has been governed by section 1137(d)
                      of the Act, which requires “a declaration in writing, under penalty of
                      perjury . . . stating whether the individual is a citizen or national of
                      the United States.”5 Pursuant to the Act, the Centers for Medicare &
                      Medicaid Services (CMS) allows, but does not require, States to accept
                      self-declaration of citizenship without requiring submission of
                      additional documentary evidence. In September 2002, CMS planned
                      to issue a final rule that would permit States to continue using self-
                      declarations of citizenship for Medicaid eligibility.6 At that time, OIG
                      agreed to conduct an inspection on the extent to which States allow
                      self-declaration. Subsequently, CMS withdrew the proposed rule.
                      However, OIG completed its inspection because of its potential value
                      in the administration of the program.

                      In recent years, CMS has encouraged self-declaration in an effort to
                      simplify and accelerate the Medicaid application process.7 While the
                      policy to allow applicants to self-declare citizenship can result in rapid

                      4 The Personal Responsibility and Work Opportunity Reconciliation Act of 1996

                         (PL 104-193).
                      5 Social Security Act § 1137 (d)(1)(A).
                      6 Centers for Medicare & Medicaid Services, “Medicaid Program: Self-Declaration of
                         Citizenship,” CMS-2085-P, Sept. 12, 2002.
                      7 Centers for Medicare & Medicaid Services, “Continuing the Progress: Enrolling and
                         Retaining Low-Income Families and Children in Health Care Coverage,” Pub. No. 11000,
                         Aug. 2001.




    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                   1
I N T R O D          U C T              I O N


                      enrollment, it can also result in inaccurate eligibility determinations
                      for applicants who provide false citizenship statements. As such,
                      there are inherent challenges in trying to provide Medicaid benefits
                      expeditiously while still ensuring the accuracy of eligibility
                      determinations. In a 2001 pamphlet, CMS provided information on
                      how to maintain program integrity while attempting to simplify the
                      application process. These strategies include verifying the accuracy of
                      citizenship statements against other nonapplicant sources, such as
                      State vital statistics databases, and/or conducting posteligibility
                      focused reviews.8
                      Personal Responsibility and Work Opportunity Reconciliation Act of 1996
                      The Personal Responsibility and Work Opportunity Reconciliation Act
                      of 1996 (PRWORA) restricts eligibility for means-tested, federally
                      funded public benefit programs to U.S. citizens or qualified aliens.
                      This same legislation directed the Attorney General to establish
                      verification guidance and procedures that States must follow in
                      verifying the citizenship or immigration status of individuals applying
                      for federally funded public benefit programs. The U.S. Department of
                      Justice (DOJ) issued interim guidance in 1997 (62 FR 61344) and
                      proposed regulations (63 FR 41662) in 1998. Final rules have not yet
                      been issued.

                      The proposed DOJ regulations would require that both citizens and
                      qualified aliens who are applying for Medicaid provide documentary
                      evidence to verify their status. However, the proposed regulations
                      would permit Federal benefit-granting agencies to establish
                      alternative procedures for verifying citizenship. The agencies would
                      be required (1) to publish regulations that provide for fair and
                      nondiscriminatory procedures for verifying the citizenship of
                      applicants for the benefit in question and (2) to obtain approval from
                      the Attorney General for the alternative procedures.

                      CMS set forth its policy concerning self-declaration in a letter dated
                      September 10, 1998, to State Medicaid directors. The letter explained
                      that States may accept self-declaration of citizenship without

                      8 Centers for Medicare & Medicaid Services, “Continuing the Progress: Enrolling and
                         Retaining Low-Income Families and Children in Health Care Coverage,” Pub. No. 11000,
                         Aug. 2001.




   OEI-02-03-00190    S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                   2
I N T R O D          U C T              I O N


                      requiring submission of additional documentary evidence. On
                      January 11, 2001, CMS published final regulations (42 CFR
                      457.320(c)) that permit States to accept self-declaration of citizenship
                      for applicants applying for coverage under the State Children’s
                      Health Insurance Program, a State-run insurance program intended
                      to provide health care coverage to certain low-income families.9
                      Evidence of Citizenship
                      The Department of Homeland Security (DHS), Bureau of Citizenship
                      and Immigration Services is responsible for determining U.S.
                      citizenship for persons in the United States.10 Currently, DHS does
                      not have a comprehensive list of acceptable evidence that may be used
                      to document citizenship.

                      The CMS State Medicaid Manual contains two lists of evidence that
                      may be accepted as proof of citizenship. These lists differ somewhat
                      and neither is comprehensive. Examples of acceptable evidence listed
                      in the manual include:

                              •        Birth certificate,

                              •        U.S. passport,

                              •        Report of Birth Abroad of a Citizen of the United States, and

                              •        Naturalization Certificate (INS Forms N-550 or N-570).11
                      In its operations manual, the Social Security Administration (SSA)
                      provides additional sources of evidence that may be used to document
                      U.S. citizenship for purposes of establishing eligibility for SSA-
                      sponsored benefits.
                      See Appendix A for a listing of the evidence accepted by CMS or SSA
                      to document U.S. citizenship.
                      Medicaid Eligibility Quality Control
                      Federal regulations require State Medicaid agencies to conduct
                      posteligibility quality control activities to “eliminate or substantially
                      reduce dollar losses resulting from eligibility errors.”12 From 1978 to


                      9 66 FR 2490. 

                      10 Homeland Security Act of 2002 § 402(3). 

                      11 State Medicaid Manual, § 3212.3, “Methods of Documenting United States Citizenship.” 

                      12 42 CFR § 431.800. 





   OEI-02-03-00190    S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                 3
I N T R O D          U C T              I O N


                      1993, States were required to conduct “traditional” eligibility case
                      reviews of the Medicaid-eligible population. As part of these
                      traditional reviews, all States were required to review and verify
                      elements such as citizenship and alienage, wage information, age, and
                      residency. To verify information on citizenship, quality control staff
                      were required to obtain documentation supporting the content of the
                      declaration of citizenship.13
                      In 1994, CMS offered States three options for conducting Medicaid
                      Eligibility Quality Control (MEQC). States could continue using
                      traditional quality control, participate in a demonstration pilot
                      program, or conduct quality control as part of a section 1115 waiver.14
                      In fiscal year 2003, 39 States operated under a section 1115 waiver or
                      an MEQC pilot.15
                      MEQC pilots. MEQC pilots allow States to develop innovative and
                      targeted approaches for conducting quality control. Under pilots,
                      States may tailor their programs to look at error-prone areas, high-
                      dollar areas, or special populations. While operating under pilots,
                      States are not required to conduct reviews of self-declaration of
                      citizenship statements.
                      Section 1115 waivers. Under section 1115 waivers, States may allow
                      certain kinds of deviations from their State Medicaid plans, including
                      the expansion of eligibility for those who would otherwise not be
                      eligible for the Medicaid program. Unless outlined in their contract
                      with CMS, States operating under section 1115 waivers with quality
                      control components are not required to conduct reviews of citizenship
                      statements.
                      Related Benefit Programs
                      Other programs in which Medicaid recipients could potentially
                      participate include Supplemental Security Income (SSI), Title IV-E
                      foster care, and Temporary Assistance for Needy Families (TANF).
                      We examined eligibility requirements and State policies and practices


                      13 State Medicaid Manual, Chapter III, 7269.130.
                      14 CMS Medicaid Quality Control Program, http://www.cms.hhs.gov/medicaid /meqc/mqcguid.asp,
                           accessed Jan. 22, 2004.
                      15 Centers for Medicare & Medicaid Services, “National Overview of Medicaid Eligibility
                          Quality Control for 2003,” May 9, 2003.



   OEI-02-03-00190    S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                   4
I N T R O D          U C T              I O N


                      regarding self-declaration of U.S. citizenship for these related
                      programs in an effort to identify a potential resource for Medicaid
                      staff. Throughout this report, we refer to the SSI, foster care, and
                      TANF programs as “Medicaid-related programs.”
                      SSI. In general, States are required to provide Medicaid coverage to
                      recipients of SSI. SSA requires that

                                  all Supplemental Security Income (SSI) applicants alleging U.S.
                                  citizenship must submit evidence. However, if an individual
                                  actually provided proof of his/her citizenship status in a prior
                                  claim for benefits from SSA, he/she will not have to resubmit that
                                  evidence.16
                      Title IV-E foster care. Section 471(21) of the Act requires States to
                      provide Medicaid or equivalent health insurance coverage to children
                      eligible to receive Title IV-E foster care program maintenance funds.
                      For all children receiving Federal foster care maintenance payments,
                      States are required to verify citizenship or immigration status.17
                      TANF. Similar to Federal requirements related to documenting U.S.
                      citizenship for Medicaid, current Federal law does not impose any
                      specific documentation requirements, other than a signed declaration
                      of U.S. citizenship, for TANF applicants claiming to be U.S. citizens.18


                      SCOPE
                      This inspection describes State practices to determine and document
                      U.S. citizenship for Medicaid and related program eligibility, as well
                      as State quality control activities. It does not identify the extent to
                      which current Medicaid beneficiaries are ineligible on the basis of
                      their citizenship. In addition, this inspection does not examine the
                      extent to which eligible individuals fail to apply for Medicaid in States
                      that require proof of U.S. citizenship as a condition of eligibility.




                      16 The SSA Program Operations Manual System, “Special Procedure for Establishing U.S.
                           Citizenship for SSI Benefits,” GN 00303.350, May 1995.
                      17 “ACF Child Welfare Policy Manual – WC Policy Database – Policy Questions &
                            Answers,” Question 9, June 4, 2003.
                      18 Social Security Act § 1137 (d)(1)(A).




   OEI-02-03-00190    S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                 5
I N T R O D          U C T              I O N 




                      METHODOLOGY
                      To identify States that allow self-declaration of U.S. citizenship for
                      Medicaid and related programs, we gathered information from State
                      Medicaid Directors and their staff responsible for quality control, as
                      well as SSA officials, State foster care directors, and State TANF
                      directors.

                      The data presented in this report were collected from State
                      representatives in the 50 States and the District of Columbia. For
                      reporting purposes, we refer to the District of Columbia as a State
                      throughout our analysis.
                      State Medicaid Directors
                      To obtain descriptive information on all States’ practices with regard
                      to self-declaration of U.S. citizenship, we administered telephone
                      surveys to all 51 State Medicaid directors and their staff. We asked
                      directors about their States’ self-declaration practices and whether
                      their State has a policy instructing eligibility staff to obtain additional
                      verification when applicants’ statements appear incomplete, unclear,
                      or inconsistent, which some States refer to as a “prudent person
                      policy.” We also asked directors to submit any evaluations or audits
                      that were conducted within the last 5 years that looked at self-
                      declaration of U.S. citizenship for Medicaid. We were able to speak
                      with all directors during June and July 2003, giving us an overall
                      response rate of 100 percent.
                      MEQC Supervisors/ Medicaid Directors
                      We administered another telephone survey to the 47 MEQC
                      supervisors and/or Medicaid directors in States that permit self-
                      declaration of U.S. citizenship during December 2003. We spoke with
                      all 47 directors and/or supervisors in these States. Survey questions
                      for the 47 Medicaid directors and/or supervisors focused on:

                              • 	 Whether MEQC was conducted in a traditional format, under
                                  a section 1115 waiver, or under an MEQC pilot format during
                                  fiscal year 2003;

                              • 	 The extent to which citizenship statements were checked
                                  during quality control activities;

                              • 	 The types of documentation used to prove statements of U.S.
                                  citizenship; and


   OEI-02-03-00190    S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   6
I N R O D       U C T           I O N


                             • 	 Whether, as part of the States’ quality control practices, self-
                                 declaration of U.S. citizenship was included for review.

                     For States operating a traditional MEQC program, we asked if staff
                     conducted the required activities, as outlined in the CMS State
                     Medicaid Manual.
                     CMS Representatives
                     We conducted interviews with representatives from the Medicaid
                     State Operations group at CMS. These interviews focused on how
                     States are permitted to conduct MEQC activities.
                     Social Security Administration Management Staff
                     In January 2004, we conducted a telephone interview with
                     management staff at SSA to determine if statements of U.S.
                     citizenship are documented during and throughout the Social Security
                     enumeration process and for SSI benefits. We also asked questions on
                     the extent to which citizenship data collected for SSA program
                     eligibility are shared with State Medicaid agencies.
                     Foster Care Directors
                     We conducted a Web-based, self-administered survey of State foster
                     care directors. All 51 directors responded to our survey during
                     October 2003. The survey requested information on whether foster
                     care staff document a child’s U.S. citizenship when determining
                     eligibility for federally funded foster care maintenance payments.
                     TANF Directors
                     We conducted a self-administered, Web-based survey of State TANF
                     directors. All 51 directors responded to our survey during September
                     2003. The survey requested States’ policies on self-declaration of U.S.
                     citizenship to qualify for TANF benefits.
                     Citizenship Evidence Accepted by CMS or SSA
                     As mentioned earlier, DHS, the agency responsible for determining
                     citizenship for a person in the United States, does not currently have a
                     comprehensive reference list of acceptable evidence. In the absence of
                     an official document from DHS, we developed a comprehensive list of
                     “accepted evidence” by combining the evidence accepted by CMS19 or



                     19 State Medicaid Manual, §§ 3212.3 and 7269.130.




   OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID        7
I N T R O D          U C T              I O N


                      SSA20 for purposes of documenting citizenship for program eligibility.
                      We then compared the forms of evidence States report using to
                      document U.S. citizenship for Medicaid and related programs with this
                      comprehensive list. See Appendix A for a complete listing of accepted
                      evidence used during our analysis.

                      We conducted this inspection in accordance with the “Quality
                      Standards for Inspections” issued by the President’s Council on
                      Integrity and Efficiency.




                      20 The SSA Program Operations Manual System, “Establishing U.S. Citizenship for all SSA
                           Programs,” GN 00303.300, July 12, 2002.


   OEI-02-03-00190    S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID               8
    F   I N D I N G
  Δ       F I N D I SN G S

   Forty-seven States allow self-declaration of U.S.            Pursuant to the Act, States may
citizenship for Medicaid; nearly all of these require           accept a signed declaration as
                                                                proof of U.S. citizenship from
         evidence if statements seem questionable
                                                                applicants seeking Medicaid
                           benefits. Forty-seven of fifty-one Medicaid directors report that
                                    21

                           their State allows or sometimes allows self-declaration of U.S.
                           citizenship. For the four remaining States (Montana, New
                           Hampshire, New York, and Texas) directors report that applicants
                           must submit documentary evidence to verify U.S. citizenship
                           statements. Table 1 displays each State’s policy on self-declaration of
                           U.S. citizenship for Medicaid.

                           Seven directors report that although their State sometimes allows
                           applicants to self-declare U.S. citizenship, documentation is required
                           under some circumstances. Four of these directors indicate that
                           documentation is required for the aged, blind, and disabled
                           populations. Other circumstances in which States sometimes ask for
                           documentation include when the applicant was born outside of the
                           United States or if information related to the applicant’s place of birth
                           does not exist in the State’s vital statistics database.

                           With the exception of one State that verifies self-declaration
                           statements through its vital statistics database, no other States
                           volunteer that they obtain verification of citizenship statements from
                           other nonapplicant sources. Further, none of the directors volunteer
                           that eligibility staff currently utilize citizenship verification
                           information from related programs such as TANF or foster care.
                           Nearly all States that allow self-declaration require evidence of U.S.
                           citizenship if statements seem questionable during the eligibility process
                           Forty-four of the forty-seven States that permit or sometimes permit
                           self-declaration report that they have a written or informal “prudent
                           person policy” requiring documentation if the statements of the
                           applicant seem questionable. Of these, 32 States have a written
                           policy to guide staff in these situations. An example of a written
                           policy instructs Medicaid eligibility staff that




                           21 CMS letter to State Medicaid directors, September 10, 1998.




         OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   9
     F   I N D I N G                   S




            Table 1: State Policies on Self-Declaration of Citizenship for Medicaid

State      Allowed           Sometimes     Not                                Prudent State               Allowed Sometimes     Not   Prudent
                               Allowed Allowed                                 Person                               Allowed Allowed    Person
                                                                                Policy                                                  Policy
AL                                                                              Written NV                                             Written
AK                                                                              Written NH                                                 NA
AZ                                                                              Written NJ                                             Written
AR                                                                             Informal NM                                             Written
CA                                                                              Written NY                                                 NA
CO                                                                               None NC                                               Written
CT                                                                              Written ND                                             Written
DE                                                                             Informal OH                                             Written
DC                                                                                None OK                                              Written
FL                                                                              Written OR                                             Written
GA                                                                              Written PA                                             Written
HI                                                                             Informal RI                                             Informal
ID                                                                             Informal SC                                             Written
IL                                                                             Informal SD                                             Informal
IN                                                                             Informal TN                                             Informal
IA                                                                              Written TX                                                 NA
KS                                                                              Written UT                                             Written
KY                                                                              Written VT                                             Written
LA                                                                              Written VA                                             Informal
ME                                                                             Informal WA                                              Written
MD                                                                              Written WV                                             Written
MA                                                                                None WI                                              Written
MI                                                                              Written WY                                             Written
MN                                                                              Written       Totals           40        7        4           -
MS                                                                              Written
                                                                                              Written           -         -       -         32
MO                                                                             Informal
MT                                                                                  NA        Informal          -         -       -         12
NE                                                                              Written       None              -         -       -          3


 Source: OIG analysis of State policies on self-declaration of U.S. citizenship, 2004




           OEI-02-03-00190           S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                          10
       F   I N D I N G          S


                                          when statements of client are incomplete, unclear, or
                                          inconsistent, or when other circumstances in the particular case
                                          indicate to a prudent person that further inquiry must be made,
                                          the worker shall obtain additional verification before eligibility
                                          is determined.

                              The remaining 12 States have unwritten, informal prudent person
                              policies requiring additional verification when eligibility staff deem
                              statements questionable.
                              Medicaid directors report they allow self-declaration to increase access and
                              express concern about increased costs if the policy is prohibited
                              We asked the 47 State Medicaid directors in States allowing self-
                              declaration their reasons for not requiring evidence of U.S.
                              citizenship. Twenty-five respondents say that they have been
                              encouraged by CMS to simplify their application processes in order to
                              reduce barriers to health care access. In addition, 17 respondents
                              report that through their posteligibility quality control activities, they
                              have not seen a problem with self-declaration of citizenship.
                              We asked what costs, if any, Medicaid applicants would incur if all
                              were required to provide documentary evidence of U.S. citizenship.
                              Twenty-eight of forty-seven directors report that it would delay
                              eligibility determination. In addition, 25 directors comment that it
                              would result in increased eligibility personnel costs. Twenty-one
                              directors also report that it would be burdensome and/or expensive for
                              applicants to obtain copies of birth certificates or other
                              documentation.

                                                                        Federal regulations require
Twenty-seven States do not verify the accuracy of U.S.
                                                                        State Medicaid agencies to
citizenship claims as part of their posteligibility quality             conduct posteligibility quality
                                        control activities              control activities to “eliminate
                              or substantially reduce dollar losses resulting from eligibility
                              errors.”22 States may conduct MEQC activities in a traditional
                              format, under an MEQC pilot format, or as part of a section 1115
                              waiver. In fiscal year 2003, 27 of the 47 States that allow self-
                              declaration did not conduct quality control activities that included
                              verification of statements of U.S. citizenship.

                              22 42 CFR § 431.800.




            OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID     11
F   I N D I N G              S


                           Of the 20 States that did review statements of U.S. citizenship, 9 did
                           so for a nonrepresentative sample of the entire Medicaid population.
                           Consequently, some groups that may pose vulnerability to Medicaid
                           integrity were not included in the sample of applications that were
                           reviewed. See Appendix B for a list of States’ quality control
                           activities.
                           Three States operating traditional MEQC programs do not conduct required
                           quality control activities
                           Under traditional MEQC, States are required to verify that sampled
                           applicants are U.S. citizens. Three of the eleven States that operated
                           a traditional MEQC program and allowed self-declaration in fiscal
                           year 2003 did not conduct required eligibility quality control for U.S.
                           citizenship. These States report that they did not collect documentary
                           evidence to support statements of U.S. citizenship for sampled
                           applicants. (See Table 2.)

       Table 2: Medicaid Quality Control on Self-Declaration of U.S. Citizenship
                            by Type of MEQC Program

                                                                                                                         Total
                                         Does Not Conduct                                        Conducts     Number of States
      Type of MEQC                          MEQC for Self-                                       MEQC for      That Allow Self-
                                     F I N D I N G S
      Program                                  Declaration                                 Self-Declaration        Declaration

      Traditional                                                                   3                    8                  11

      Pilot*                                                                   20                        8                  28

      Waiver                                                                        4                    4                      8

           Overall total
                                                                               27                       20                  47
           States
      *In fiscal year 2003, Tennessee operated under both an MEQC pilot and an 1115 waiver. We considered Tennessee
       a pilot program because it conducted MEQC activities under its pilot, which included the entire Medicaid population.

      Source: OIG analysis of State MEQC practices, 2004




     OEI-02-03-00190       S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                         12
F   I N D I N G 
S


                       Twenty MEQC pilot States do not monitor self-declaration of U.S. citizenship
                       While operating under an MEQC pilot, States may, but are not
                       required to, conduct posteligibility reviews of self-declaration of
                       citizenship statements. Twenty of the twenty-eight States that
                       permit self-declaration of U.S. citizenship and operated under a pilot
                       program in fiscal year 2003 did not obtain documentary evidence to
                       support beneficiaries’ statements of U.S. citizenship for any portion of
                       their Medicaid population. Eight States conducted quality control on
                       self-declarations of citizenship, but seven did so for a
                       nonrepresentative sample which accounted for less than 8 percent of
                       the Medicaid population. These samples did not include certain
                       populations that may pose vulnerability to Medicaid integrity.
                       Four section 1115 waiver States do not address self-declaration of U.S.
                       citizenship
                       While operating under a section 1115 waiver with a quality control
                       component, a State may, but is not required to, conduct reviews of
                       self-declaration of citizenship statements. Four of the eight States
                       that allow Medicaid applicants to self-declare U.S. citizenship and
                       operated under section 1115 waivers in fiscal year 2003 did not obtain
                       and verify documentary evidence to support statements of U.S.
                       citizenship. Of the four section 1115 waiver States that verify
                       statements of U.S. citizenship for quality control purposes, two
                       conducted MEQC for only a subset of the entire Medicaid population.
                       Only one State reports conducting an audit looking at self-declaration of
                       U.S. citizenship, and it found vulnerabilities
                       We asked States for any quality control audits or evaluations that
                       looked at self-declaration of citizenship. Only one State director
                       provided an audit on this topic. This audit report found
                       vulnerabilities related to the process of self-declaration of U.S.
                       citizenship.

                       Specifically, the audit, conducted in January 2002 by the Secretary of
                       the State of Oregon, found that the State provided full Medicaid
                       benefits to 25 beneficiaries (of the sample of 812) who were
                       noneligible noncitizens. The audit report concludes that there are
                       potential risks involved in allowing applicants to self-declare their
                       U.S. citizenship on mail-in applications, which do not allow workers to
                       verify the accuracy of statements of U.S. citizenship. They estimate



     OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   13
F   I N D I N G          S


                       that the risk could result in an annual cost of about $2 million, based
                       on a 1 percent estimate of noneligible noncitizens receiving Medicaid
                       benefits.23


        Some States use types of evidence that are
         not accepted by CMS or SSA to document
                          citizenship for Medicaid

                       Four States use forms of evidence that are not accepted by CMS or SSA to
                       document citizenship for initial Medicaid eligibility
                       As reported earlier, seven States sometimes allow and four States do
                       not allow Medicaid applicants to self-declare citizenship. Of these 11
                       States, 4 use types of evidence to document citizenship that are not
                       accepted by CMS or SSA. Specifically, two States allow the use of a
                       school record to document citizenship and two allow use of a family
                       Bible as documentation.24
                       Seven of eleven States that sometimes allow or do not allow self-
                       declaration report accepting documentation that is accepted by CMS
                       or SSA. These include public birth records, U.S. passports, and
                       naturalization certificates.
                       Thirteen States use types of evidence that are not accepted by CMS or SSA
                       to verify statements of U.S. citizenship for posteligibility quality control
                       purposes
                       Thirteen of the twenty States that report conducting quality control to
                       verify statements of U.S. citizenship use forms of documentation that
                       are not accepted by CMS or SSA. For example, 11 of these 13 States
                       report using records of receipt of SSI to verify citizenship. While one
                       of the primary sources included in the CMS State Medicaid Manual to
                       verify citizenship and alienage declarations is “Record of receipt of



                       23 Audit Report: “Department of Human Services Oregon Health Plan Eligibility Review,”
                           Report No. 2002-03, January 3, 2002, p. 1.
                       24 According to section 7269.1 of the State Medicaid Manual, States may accept evidence of

                           continuous residence in the United States prior to June 30, 1948. Among the records
                           accepted to prove continuous residence are school records, a marriage license, a voter
                           registration card, an insurance policy, military service records, and a Social Security
                           number. The directors identified here did not report accepting documentation that was
                           dated prior to June 30, 1948.



     OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                   14
 F   I N D I N G          S


                        SSI,”25 in discussions with SSA, we found that verification of receipt
                        of SSI does not guarantee that the Medicaid applicant or beneficiary
                        is a U.S. citizen. Medicaid agencies must take the additional step of
                        verifying the Alien/Refugee code in the State Data Exchange report
                        files, which provide States with eligibility, payment, and demographic
                        data relating to SSI recipients, to substantiate that evidence of U.S.
                        citizenship was submitted for SSI eligibility purposes.

                        Other examples of documentation that is not accepted by CMS or SSA
                        but which State Medicaid directors report using for quality control
                        purposes are voter registrations, proof of Medicare Part A, school
                        records, children’s birth certificates to prove a parent’s citizenship
                        status, marriage licenses, and even other self-declaration statements.

      Medicaid-related programs are more               Medicaid applicants may potentially
                                                       participate in related programs such as
       likely to document citizenship; their
                                                       SSI, foster care, and TANF. We found
verifications may be a useful resource for
                                                       that these related programs are more
                                  Medicaid             likely than Medicaid to document
                        citizenship and most often use evidence that is accepted by CMS or
                        SSA to verify this status. These verifications may be a useful
                        resource for Medicaid staff. Appendix C provides information on
                        related programs’ policies and use of documentation on a State-by-
                        State basis.
                        United States citizenship is always documented for enumeration and SSI
                        The SSA officials report that all applicants must provide documentary
                        evidence of U.S. citizenship or legal status in order to receive a Social
                        Security number (enumeration) or to qualify for SSI benefits. In some
                        cases, SSA’s prior determination of citizenship is accepted as a means
                        for documenting U.S. citizenship. However, SSA is currently
                        reviewing this policy to ensure that it does not rely on inadequate
                        documentation that was submitted for purposes of enumeration and
                        SSI in prior years.

                        As indicated earlier, in discussions with SSA officials, we found that
                        verification of receipt of SSI does not prove U.S. citizenship.



                        25 It is important to note that this list does not distinguish between appropriate sources to
                            verify U.S. citizenship versus appropriate sources to verify alienage.


      OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                     15
F   I N D I N G          S


                       Eligibility staff must take the additional step of verifying the
                       Alien/Refugee code in the State Data Exchange report files.
                       Forty-two States document the citizenship status of children receiving Title
                       IV-E foster care benefits, as required by the Administration for Children and
                       Families
                       The Administration for Children and Families requires that foster
                       care eligibility staff document U.S. citizenship status for purposes of
                       federally funded Title IV-E foster care maintenance payment
                       eligibility.26 Forty-two of fifty-one foster care directors report that
                       staff document U.S. citizenship when determining eligibility for
                       federally funded foster care maintenance. Seven directors report that
                       staff sometimes document U.S. citizenship, and two say citizenship is
                       never documented.

                       Among the seven foster care directors who indicate that U.S.
                       citizenship is sometimes not documented, circumstances under which
                       no documentation occurs vary significantly. Examples include “the
                       rare occurrence when a child falls under category 85, undocumented
                       alien emergency situation coverage” and “when a parent or other
                       reliable source reports a child is a citizen.”
                       Fifteen States document citizenship to determine TANF eligibility
                       Similar to requirements for Medicaid, States may permit TANF
                       applicants to self-declare U.S. citizenship status as a condition of
                       eligibility. Fifteen of fifty-one directors report verifying citizenship for
                       TANF eligibility. Twelve directors report that it is their State’s policy
                       to sometimes verify applicants’ statements of U.S. citizenship.
                       Twenty-four TANF directors report that their State allows self-
                       declaration for eligibility purposes.
                       Related programs commonly use types of evidence that are accepted by
                       CMS or SSA to verify citizenship
                       Thirty-five of the forty-nine foster care directors that verify or
                       sometimes verify U.S. citizenship for children entering their State’s
                       foster care program use types of evidence that are accepted by CMS or
                       SSA. The remaining 14 include forms of documentation that are not
                       accepted. Examples of these include green cards, Social Security

                       26 “ACF Child Welfare Policy Manual – WC Policy Database – Policy Questions &
                             Answers,” Question 9, June 4, 2003.



     OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID         16
F   I N D I N G          S


                       numbers, citizenship declarations by parents/caregivers, military
                       service records, and family Bibles.

                       Twenty of the twenty-seven States that verify or sometimes verify
                       U.S. citizenship for TANF eligibility purposes use evidence accepted
                       by CMS or SSA. The remaining States report using evidence that is
                       not accepted, such as voter registration cards, school records, and/or
                       family Bibles.

                       In the majority of instances, we found that related programs draw on
                       evidence that is accepted by CMS or SSA to verify statements of
                       citizenship. In States where related programs both verify statements
                       of citizenship and use generally accepted documentation to do so,
                       these verifications may be a useful resource for Medicaid.




     OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   17
Δ    R E C O M M E N D A T I O N S                                                              





                      We recognize that there are challenges in providing Medicaid benefits
                      expeditiously while ensuring the accuracy of eligibility determinations.
                      By their nature, self-declaration policies have inherent vulnerabilities
                      in that they can allow applicants to provide false statements of
                      citizenship. As such, it is vital to have protections in place to prevent
                      such practices.

                      Based on the descriptive information we collected from States, we
                      conclude that existing safeguards at the point of entry into Medicaid
                      and during posteligibility quality control could allow false statements of
                      citizenship to go undetected. Below are three recommendations for
                      improving safeguards:
                      CMS should strengthen posteligibility quality controls in States that allow
                      self-declaration

                      Currently, 47 States allow self-declaration of citizenship for Medicaid.
                      Over half of these never verify citizenship statements as part of their
                      posteligibility quality control procedures. In States that do check
                      statements, most do so for a subset of the entire Medicaid population.
                      More examinations are needed to determine if there are problems
                      resulting from this policy. Therefore, CMS should encourage States
                      that allow self-declaration of citizenship to conduct reviews on the
                      accuracy of these statements. Findings from these reviews could then
                      be used to determine the extent to which this policy results in
                      inaccurate eligibility determinations.
                      CMS should issue a complete list of evidence that States may reference
                      when determining eligibility

                      Four of the eleven States that require or sometimes require evidence of
                      citizenship for initial Medicaid eligibility use types of evidence that are
                      not accepted by CMS or SSA. Further, 13 of the 20 States that report
                      conducting quality control to verify statements of citizenship use types
                      of evidence that are not accepted by CMS or SSA. In its State Medicaid
                      Manual, CMS has two lists of evidence that are slightly different, and
                      neither is comprehensive. To better ensure that States collect evidence
                      that is consistent with CMS standards, CMS should issue a complete
                      list of evidence that States may reference when determining eligibility.

    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID       18
R   E C O     M M E N D A T                                 I O N       S


                      CMS should explore allowing State Medicaid staff to use citizenship
                      verifications from other Medicaid-related programs as an additional
                      resource

                      When looking at related programs including SSI, Title IV-E, and TANF,
                      we found that these programs are more likely to verify citizenship as a
                      condition of eligibility and, in most cases, use types of evidence that are
                      accepted by CMS or SSA. If CMS determines it appropriate, States that
                      allow applicants to self-declare citizenship could perform checks on the
                      accuracy of these statements using related programs’ verification
                      information. This step would not add a burden to applicants and would
                      not require the collection of additional documentation. In Appendix C,
                      we identify which States and programs verify statements of citizenship
                      and use evidence accepted by CMS or SSA.


                      AGENCY COMMENTS
                      CMS concurred with our recommendations. The agency further
                      commented that it has already taken steps to improve safeguards to
                      prevent applicants from providing false statements of citizenship. The
                      full text of CMS’s comments is included in Appendix D.

                      We note several issues with CMS’s current efforts. Specifically, CMS
                      explained that, pursuant to Federal regulations, States must verify
                      statements of citizenship for sampled active cases as part of their
                      posteligibility quality control procedures. We reiterate that this
                      regulation applies only to States that operate traditional quality control.
                      States that operate under a pilot or a section 1115 waiver with a quality
                      control component are not required to verify all elements of eligibility,
                      including statements of citizenship as part of their posteligibility case
                      file review.

                      CMS also commented that States choosing to accept self-declaration of
                      citizenship need to have systems in place for some type of posteligiblity
                      check to ensure that the self-declaration procedure is reliable. CMS
                      stated that it is taking steps to do this by requiring a review of the
                      accuracy of eligibility determinations as part of the Payment Error Rate
                      Measurement (PERM) project. Currently, the Office of Management
                      and Budget is working with CMS to define the scope of the PERM
                      project. As of June, no decision has been made regarding the inclusion
                      of errors related to Medicaid eligibility determinations.


    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   19
Δ   A P P E N D I X                                   ~            A 





             Types of Evidence Accepted by CMS or SSA to Document U.S.
                                    Citizenship

        Documentation Type                                                                          CMS          SSA
        A birth certificate showing birth in
        the United States
        Religious record of birth recorded
        in the United States or its
        territories within 3 months of
        birth, which indicates a U.S.
        place of birth
        United States passport
        Form FS-240 (Report of Birth
        Abroad of a Citizen of the United
        States)
        Form FS-545 (Certification of
        Birth)
        U.S. Citizen I.D. Card Form I-97
        (United States Citizen
        Identification Card)
        Form N-550 and N-570
        (Certificate of Naturalization)
        Forms N-560 and N-561
        Evidence of continuous
        residence in the United States
        prior to June 30, 1948 (including
        school records; marriage license;
        voter registration card; insurance
        policy; military service records;
        Social Security number issued
        prior to June 30, 1948, etc.)
        Record receipt of SSI*
        Bureau of Vital Statistics, local
        government, hospital, or clinic
        records of birth and parentage
        Court records of parentage,
        juvenile proceedings, or child
        support
       Sources: CMS State Medicaid Manual §§ 3212 and 7269 and the SSA Program Operations Manual System: GN 00303.300




    OEI-02-03-00190       S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                       20
A   P   P E N D     I X ~       A         




                   Documentation Type                                                                          CMS          SSA
                   American Indian Card (first
                   issued by INS in 1983)
                   Form DS-1350 (Certification of
                   Report of Birth) issued by the
                   State Department
                   Northern Mariana Identification
                   (NMI) Card, first issued by INS in
                   1987, to identify naturalized
                   citizens born in the NMI before
                   November 3, 1986
                   Evidence of civil service
                   employment by the U.S.
                   Government before June 1, 1976
                  Sources: CMS State Medicaid Manual §§ 3212 and 7269 and the SSA Program Operations Manual System: GN 00303.300

                *Note: In discussions with SSA, we found that verification of receipt of SSI alone does not guarantee
                   that the Medicaid applicant or beneficiary is a U.S. citizen. Medicaid agencies must take the
                   additional step of verifying the Alien/Refugee code in the State Data Exchange report files.
                   Therefore, while CMS does accept this form of documentation, we determined that this might not
                   prove U.S. citizenship.




             OEI-02-03-00190         S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                       21
Δ   A P P E N D I X                             ~             B          



    Fiscal Year 2003 MEQC in the 47 States Allowing Self-Declaration of
                            U.S. Citizenship
                                                                                                Conducts Some MEQC
                                                             CMS MEQC
State                                                                                       On Self-Declaration Of U.S.
                                                          Categorization
                                                                                                           Citizenship
Alabama                                                              Traditional                                   Yes
Alaska                                                                         Pilot                                No
Arizona                                                                      Waiver                                Yes
Arkansas                                                                     Waiver                                Yes
California                                                                     Pilot                               Yes
Colorado                                                                       Pilot                                No
Connecticut                                                          Traditional                                   Yes
Delaware                                                                       Pilot                                No
District of Columbia                                                           Pilot                                No
Florida                                                              Traditional                                   Yes
Georgia                                                              Traditional                                    No
Hawaii                                                                       Waiver                                Yes
Idaho                                                                          Pilot                                No
Illinois                                                                       Pilot                               Yes
Indiana                                                                        Pilot                               Yes
Iowa                                                                           Pilot                                No
Kansas                                                                         Pilot                                No
Kentucky                                                                       Pilot                                No
Louisiana                                                                      Pilot                                No
Maine                                                                Traditional                                    No
Maryland                                                                     Waiver                                Yes
Massachusetts                                                                Waiver                                 No
Michigan                                                             Traditional                                   Yes
Minnesota                                                                    Waiver                                 No
Mississippi                                                          Traditional                                   Yes
Missouri                                                                     Waiver                                 No
Nebraska                                                                       Pilot                                No




           OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                      22
A   P    P E N D            I X ~        B            




                                                                                                              Conducts Some MEQC
                                                                              CMS MEQC
    State                                                                                                 On Self-Declaration Of U.S.
                                                                           Categorization
                                                                                                                         Citizenship
    Nevada                                                                                   Pilot                                No
    New Jersey                                                                               Pilot                                No
    New Mexico                                                                               Pilot                                No
    North Carolina                                                                           Pilot                                No
    North Dakota                                                                    Traditional                                  Yes
    Ohio                                                                                     Pilot                                No
    Oklahoma                                                                        Traditional                                   No
    Oregon                                                                               Waiver                                   No
    Pennsylvania                                                                             Pilot                               Yes
    Rhode Island                                                                    Traditional                                  Yes
    South Carolina                                                                           Pilot                               Yes
    South Dakota                                                                             Pilot                                No
    Tennessee                                                                              Pilot*                                Yes
    Utah                                                                                     Pilot                               Yes
    Vermont                                                                         Traditional                                  Yes
    Virginia                                                                                 Pilot                                No
    Washington                                                                               Pilot                                No
    West Virginia                                                                            Pilot                                No
    Wisconsin                                                                                Pilot                               Yes
    Wyoming                                                                                  Pilot                                No
         Total Traditional                                                                        11                                -
         Total Pilot                                                                              28                                -
         Total Waiver                                                                              8                                -
         Total Yes                                                                                  -                             20
         Total No                                                                                   -                             27

        Source: OIG analysis of State MEQC practices, 2004

        *In fiscal year 2003, Tennessee operated under both an MEQC pilot and an 1115 waiver. We considered Tennessee a
         program because it conducted MEQC activities under its pilot, which included the entire Medicaid population.




                OEI-02-03-00190          S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                        23
Δ      A P P E N D I X                                  ~         C        




      Related Programs Policies on Self-Declaration and Their Use of
      Documentation Accepted by CMS or SSA: A Guide for Medicaid
                             Eligibility Staff
                                                            TANF Uses                                       Foster Care
                                                              Evidence                          Foster   Uses Evidence
State          Medicaid            TANF                                                          Care
                                                       Accepted by CMS                                     Accepted by
                                                                 or SSA                                    CMS or SSA
AL                    ▲                      Δ                      Yes                             ●                No
AK                    Δ                      Δ                      Yes                             ●               Yes
AZ                    ▲                      Δ                       No                             ●               Yes
AR                    ▲                      ▲                       NA                             ●               Yes
CA                    Δ                       ●                     Yes                             ●               Yes
CO                    ▲                      ▲                       NA                             ●               Yes
CT                    ▲                      Δ                       No                             Δ                No
DE                    ▲                      ●                       No                             ●               Yes
DC                    ▲                      ▲                       NA                             ●               Yes
FL                    Δ                      ▲                       NA                             ●                No
GA                    ▲                      ▲                       NA                             ●                No
HI                    ▲                       ●                     Yes                             ●                No
ID                    ▲                      ▲                       NA                             ●                No
IL                    ▲                      Δ                      Yes                             ●               Yes
IN                    Δ                       ●                     Yes                             ●               Yes
IA                    ▲                      Δ                      Yes                             ●               Yes
KS                    ▲                      ▲                       NA                             ●               Yes
KY                    ▲                      ▲                       NA                             ●                No
LA                    ▲                      ▲                       NA                             Δ               Yes
ME                    ▲                      ▲                       NA                             ●               Yes
MD                    ▲                      Δ                      Yes                             ●               Yes
MA                    ▲                      Δ                       No                             ▲                NA
MI                    ▲                      Δ                      Yes                             ●               Yes
MN                    ▲                      ▲                       NA                             ▲                NA
MS                    Δ                      ▲                       NA                             ●               Yes
MO                    ▲                      Δ                      Yes                             Δ               Yes
MT                    ●                       ●                     Yes                             ●               Yes
NE                    ▲                      ▲                       NA                             ●                No




    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                             24
A   P   P E N D          I X          C            





                                                                                 TANF Uses                                  Foster Care
                                                                                  Evidence                      Foster   Uses Evidence
         State              Medicaid                   TANF
                                                                                Accepted by                      Care      Accepted by
                                                                                CMS or SSA                                 CMS or SSA
         NV                              ▲                       ●                      Yes                         ●               Yes
         NH                               ●                      ●                       No                         ●               Yes
         NJ                              Δ                       ●                       No                         Δ               Yes
         NM                              ▲                      ▲                        NA                         Δ                No
         NY                               ●                      ●                      Yes                         ●               Yes
         NC                              ▲                      ▲                        NA                         ●                No
         ND                              ▲                       ●                      Yes                         Δ                No
         OH                              ▲                       ●                      Yes                         ●               Yes
         Ok                              ▲                      ▲                        NA                         ●               Yes
         OR                              ▲                      ▲                        NA                         ●               Yes
         PA                              ▲                      Δ                        No                         ●               Yes
         RI                              Δ                       ●                      Yes                         ●               Yes
         SC                              ▲                      ▲                        NA                         ●               Yes
         SD                              ▲                      ▲                        NA                         ●               Yes
         TN                              ▲                      ▲                        NA                         ●               Yes
         TX                               ●                      ●                      Yes                         Δ                No
         UT                              ▲                      ▲                        NA                         ●                No
         VT                              ▲                      Δ                       Yes                         ●               Yes
         VA                              ▲                      ▲                        NA                         ●               Yes
         WA                              ▲                      ▲                        NA                         ●               Yes
         WV                              ▲                      ▲                        NA                         ●               Yes
         WI                              ▲                       ●                      Yes                         ●               Yes
         WY                              ▲                       ●                      Yes                         ●                No
          Total ▲                       40                     24                          -                        2                 -
          Total Δ                        7                     12                          -                        7                 -
          Total ●                        4                     15                          -                       42                 -
           Total Yes                        -                      -                             20                  -              35
           Total No                         -                      -                              7                  -              14
           Total NA                         -                      -                             24                  -               2

         Source: OIG analysis of related program policies on self-declaration of U.S. citizenship, 2004

         * Because SSA always verifies the citizenship status of applicants for a Social Security number or for
           SSI, a State-by-State description of this policy does not appear in this table.
         ▲ Denotes a State that reports permitting self-declaration of U.S. citizenship or reports not requiring
           evidence of citizenship to qualify for federally funded benefits.
         Δ Denotes a State that reports sometimes permitting self-declaration of U.S. citizenship.
         ● Denotes a State that reports never permitting self-declaration or requiring evidence of U.S.

           citizenship to qualify for this federally funded benefit.




           OEI-02-03-00190            S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID                             25
Δ      A P P E N D I X                                  ~         D        





    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   26 

A   P   P E N D       I X ~            D               





    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   27 

A   P   P E N D       I X ~            D               





    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID   28 

Δ      E N
       A C D
           K N NO OW T L E E S D G M E N T S                                                    

                      This report was prepared under the direction of Jodi Nudelman, Acting
                      Regional Inspector General for Evaluation and Inspections in the New
                      York Regional Office. Other principal Office of Evaluation and
                      Inspections staff who contributed include:

                      Ellen Vinkey, Team Leader
                      Christi Macrina, Project Leader

                      David Rudich, Program Analyst

                      Linda Ragone, Deputy Regional Inspector General, Region III

                      Tricia Davis, Director, Medicare and Medicaid Branch
                      Elise Stein, Director, Public Health and Human Services

                      Linda Hall, Program Specialist

                      Barbara Tedesco, Mathematical Statistician




    OEI-02-03-00190   S E L F - D E C L A R AT I O N   OF   U.S. CITIZENSHIP   FOR   MEDICAID       29
